Case: 20-50969

Document: 00515755225

Page: 1

Date Filed: 02/24/2021

3Smteti ibtatess Court of Appeals!
for tlje JftftI) Circuit
No. 20-50969

Certified as a true copy and issued
as the mandate on Feb 24, 2021

Attest:
w. e*.U
Clerk, U.S. Court of Appeals, Fifth Circuit

Jaime Luevano,

Plaintiff—Appellant^
versus
Judge Lee Yeakel; Governor Greg Abbott; Warden
Amanda Campbell,
Defendants—Appellees.

Appeal from the United States District Court
for the Western District of Texas
USDC No. 1:20-CV-1069

CLERK'S OFFICE:
Under 5th Cir. R. 42.3, the appeal is dismissed as of February 24,
2021, for want of prosecution. The appellant failed to timely pay the
docketing fee.
LYLE W. CAYCE
Clerk of the United States Court
of Appeals for the Fifth Circuit
r}\WJUL TXP QmJLU^'7<J
By:
Renee S. McDonough, Deputy Clerk
ENTERED AT THE DIRECTION OF THE COURT

Case l:20-cv-01069-RP Document 4 Filed 10/27/20 Page lot 5
Case fdo;5:11cv131
Filed: 02/28/11
Doc. #8

FILED

UNITED STATES DISTRICT COURT
WESTERN DISTRICT of TEXAS
SAN ANTONIO DIVISION

0^8d«CotfS

JAIME LUEVANO,
TDCJ # 1655791
Petitioner,
v.

OFFICE OF INSPECTOR GENERAL,
Respondent,

FEB 2 8 20ll

§
§
§
§
§
§
§
§
§
§
§

WESTE
BY

^ OEPiiTY cleRK

Civil Action
No. SA-11-CA-131-OG

DISMISSAL ORDER
Before the Court js petitioner Jaime Luevano’s “writ of mandamus to compel the offices to
investigate violations of Connally Unit.” Petitioner seeks an investigation into prison conditions.
Petitioner has filed a motion for leave to proceed in forma pauperis. Because petitioner seeks an
investigation into prison conditions, the underlying action is not habeas in nature, so this case is
subject to the filing fee provisions of the Prison Litigation Reform Act. See In re Crittenden, 143
F.3d 919,920 (5th Cir. 1998).
Pursuant to 28 U.S.C. § 1915(g), a prisoner who has three or more prior federal civil actions
dismissed as frivolous, malicious, or for failure to state a claim, may not proceed in forma pauperis
(IFP) without a showing he is under imminent danger of serious physical injury. Petitioner has at
least three previous federal actions dismissed for failure to state a claim or as frivolous. See Luevano
v. Casey, No. 3:09-CV-583 (M.D. Penn. May 27, 2009) (dismissed for failure to state a claim);
Luevano v, Johnson, No. 1:09-CV-71 (D.D.C. Jan. 13,2009 (dismissed for failure to state a claim);
Luevano v. Boykin, No; 5.08-CV-1844 (N.D. Ohio Oct. 31,2008) (dismissed for failure to state a
claim); Luevano v. Richardson, No. L08-CV-781 (D.N.M. Oct. 1,2008) (dismissed for failure to
state a claim); Luevano v. Clinton, No. 2:08-CV-1360 (E.D.N.Y. Apr. 4,2008) (dismissed for as
A trus e<

tho original, I certify,
ferk, p, S. District Court

By

7

DeDutv

Case l:20-cv-01069-RP Document 4 Filed 10/27/20 Page 2 of 5

frivolous); Luevano v. Board ofDisciplinary Appeals, No. 5:08-CV-107 (W.D. Tex. Mar. 20,2008)
(dismissed as frivolous); Luevano v. Doe, No. 1:07-CV-1025 (W.D. Tex. Jan. 18,2008) (dismissed
as frivolous); Luevano v. Perry, No. 1:07-CV-1026 (W.D. Tex. Jan. 18, 2008) (dismissed as
frivolous); Luevano v. United States President ofAmerica, No. 08-CV-53 (D.D.C. Jan. 2, 2008)
(dismissed for failure to state a claim).
Because petitioner has three prior civil actions that were dismissed for failure to state a claim
or as frivolous, § 1915(g) prohibits him from proceeding IFP unless he is currently under imminent
danger of serious physical injury. Petitioner has failed to show he is in imminent danger of serious
physical injury.
Accordingly, petitioner is DENIED leave to proceed IFP. Petitioner asserts he cannot pay
the filing fee in this case, and thus it would be futile for this Court to order petitioner to pay the filing
fee. Therefore petitioner Luevano’s petition for writ of mandamus is DISMISSED WITHOUT
PREJUDICE pursuant to 28U.S.C. § 1915(g) and for failure to prosecute pursuant to Fed. R. Civ.
P. 41(b) for failure to pay the filing fee.
In Luevano v. Connally Unit, No. SA-10-CA-831-FB, this court pointed out that Luevano
has had at least twelve previous cases dismissed pursuant to § 1915(g). See Luevano v. U.S. District
Court, No. 3:10-CV-335 (N.D. Tex. 2010); Luevano v. Criminal Court ofAppeals, 1:09-CV-942
(W.D.Tex. 2010);Luevano v. Sanchez, No. 3:09-CV-441 (W.D. Tex.2009);Luevano v. Wiles,No.
2.-09-CV-271 (N.D. Tex. 2009); Luevano v. Henning, No. 2:09-CV-12753 (E.D. Mich. 2009);
Luevano v. US. Postal Inspection Service, No. 4:09-CV-2207 (S.D. Tex. 2009); Luevano v. Texas
Supreme Court, No. 5:09-CV-434 (W.D. Tex. 2009); Luevano v. Keller No. l:08-CV-929 (W.D.
Tex. 2009); Luevano v. Medrano, 3:08-CV426 (W.D. Tex. 2008); Luevano v. Hawthorne, No. 1:08-

- 2 -

Case l:20-cv-01069-RP Document 4 Filed 10/27/20 Page 3 of 5

CV-836 (W.D. Tex. 2008); Luevano v. Trent, No. 3:08-CV-506 (E.D. Va. 2008); Luevano v. US.
Rep. Congress, No. 4-.08-CV-489 (N.D. Okla. 2008).
In the Dismissal Order in No. SA-10-CA-831-FB entered October 26, 2010, this court
warned Luevano that if he continues to file civil pleadings that do not show he is in imminent danger
of serious physical injury in any future cases in which he does not submit the filing fee or in which
he seeks leave to proceed in forma pauperis, sanctions may be imposed, including monetary
sanctions and restrictions on his ability to file pleadings in this court. In the short time since that
order was entered, in addition to the present case, Luevano has filed and pursued the following cases:
Luevano v. Henning, No. 2:10-CV-14387 (E.D. Mich.) (filed November 2,2010; dismissed February
14,2011, for lack of subject matterjurisdiction); Luevano v. Connally, No. 3:10-CV-813 (E.D. Va.)
(filed November 5,2010; pending on order denying leave to proceed IFP because of § 1915(g));
Luevano v. Barbosa, No. 4:10-CV-4851 (S.D. Tex.) (filed November 10,2010; dismissed December
7,2010, pursuant to § 1915(g)); Luevano v. Unknown Party, No. 2:10-CV-2539 (D. Ariz.) (filed
November 22,2010; dismissed December 17,2010); Luevano v. State Bar of Texas,No. 3:11-CV33 (S.D. Ill.) (filed January 10, 2011; dismissed January 29, 2011, for failure to state a claim);
Luevano v. Texas State Courts, No. 1:11-CV-l 18 (W.D. Tex.) (filed February 11,2011; dismissed
February 17,2011, pursuant to § 1915(g)).
Lueveano is already barred from proceeding IFP pursuant to § 1915(g), but he continues to
abuse his filing privileges. Lueavano has failed to heed this court’s warning about continuing to file
civil pleadings that do not show he is in imminent danger of serious physical injury in cases in which
he does not submit the filing fee or in which he seeks leave to proceed in forma pauperis. Lesser
sanctions would be ineffective.

- 3 -

Case l:20-cv-01069-RP Document 4 Filed 10/27/20 Page 4 of 5

Therefore, this court ORDERS Jaime Luevano is sanctioned $100 and is barred from
filing documents with the United States District Court for the Western District of Texas until
this sanction is paid. The Clerk of Court is directed not to accept any attempted submissions
inconsistent with this bar.
Additionally, this court ORDERS that in any future civil pleading Jaime Luevano files
or attempts to file in any United States District Court to open a civil case, he must state that
this court imposed a $100 sanction, he must state that he is barred him from filing documents
with the United States District Court for the Western District of Texas until this sanction is
paid, and he must state whether he has paid the sanction.
Also, this court ORDERS that in any future civil pleading Jaime Luevano files or
attempts to file in any United States District Court to open a civil case, he must set out in the
pleading a complete history of his previous civil litigation in federal courts, identifying each
case by name and cause number, stating the court in which each case was filed, and stating the
result of each case.
Failure by Jamie Luevano to comply with these orders shall result in the imposition of
additional sanctions.
The Clerk of Court shall send a copy of this Dismissal Order to the Pro Se Staff
Attorney, Attn.: Keeper of the “Three Strikes List,” U.S. District Court for the Eastern District
of Texas for the Tyler Division, 211 West Ferguson, Tyler, Texas 75702
)

SIGNED: Februaiy

7

,2011.

ORLANDO H. GAROAV ,
UNITED STATES DISTRICT JUDGE
- 4 -

Case l:20-cv-01069-RP Document 4 Filed 10/27/20 Page 5 of 5
Case 5:11-cv-0010'OLG Document 9

Filed 02/28/

Page 1 of 1

UNITED STATES DISTRICT COURT
WESTERN DISTRICT of TEXAS
SAN ANTONIO DIVISION
JAIME LUEVANO,
TDCJ# 1655791
Petitioner,
v.
OFFICE OF INSPECTOR GENERAL,
Respondent

§
§
§
§
§
§
§
§
§
§

Civil Action
No. SA-11-CA-131-OG

JUDGMENT
Pursuant to this Court’s Dismissal Order, Jaime Luevano’s petition for writ of mandamus
is DISMISSED WITHOUT PREJUDICE pursuant to 28 U.S.C. § 1915(g) and for failure to
prosecute pursuant to Fed. R. Civ. P. 41(b) for failure to pay the filing fee.
SIGNED: February

A

,2011,

ORLANDO L. GARCIA
UNITED STATES DISTRICT JUDGE

A tw@ gpy'Of the original, I certify.
!tklv. S. District Court
Deputy

0k

Case l:20-cv-01069-RP Document 4-1 Filed 10/27/20 Page 1 of 7
Case No: 6;12cv49

Filed: 03/05/12
Doc. #6

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
WACO DIVISION
JAIME LUEVANO,
TDCJ #1655791,
Petitioner,
v.
U. S. DISTRICT JUDGE OF
ABILENE, TX,etal.f
Respondents.

§

§
§
§
§
§
§
§
§

Civil No. W-12-CA-049

ORDER

Before the Court Is Petitioner’s Petition for a Writ of Mandamus (Doc. 1),
Motion to Proceed in forma pauperis (“IFP”) (Doc. 2), and “Motion for Conspiracy
that Officials Conceal up a Murder Plot in Generally, etc.” (Doc. 3). Petitioner, who
Is currently incarcerated at the Connally Unit of the Texas Department of Criminal
Justice, Correctional Institutions Division, is before the Court pro se.
In his mandamus petition, Petitioner seeks an order compelling a hearing and
the appointment of a special master in connection with investigating a purported
murder plot at the Connally Unit of the Texas Department of Criminal Justice
(“TDCJ”). (Doc. 1). Petitioner states that his life remains in “danger cause of
cowards to cover-up a murder plot in general.” (Id.).
The Prisoner Litigation Reform Act of 1996 (“PLRA"), 28 U.S.C. §1915,
provides the procedures for prisoners seeking to proceed IFP. The PLRA provides,
in pertinent part, that “[i]n no event shall a prisoner bring a civil action or appeal a

Case l:20-cv-01069-RP Document 4-1 Filed 10/27/20 Page 2 of 7

judgment in a civil action or proceeding under [§ 1915] if the prisoner has, on 3 or
more prior occasions, while incarcerated or detained in any facility, brought an action
or appeal in a court of the United States that was dismissed on the grounds that it
is frivolous, malicious, or fails to state a claim upon which relief may be granted,
unless the prisoner is under imminent danger of serious physical injury." 28 U.S.C.
§ 1915(g). Because the underlying nature of Petitioner’s mandamus petition is a civil
action, he is subject to the filing fee requirements of the PLRA. See In re Jacobs,
213 F.3d289 n.1 (5"* Cir. 2000); In re Stone, 118 F.3d 1032,1033-34 (5th Cir. 1997).
Petitioner’s litigation history reveals that he has filed over seventy cases in
federal district courts throughout the United States, including thirty-three cases in
courts within the Fifth Circuit.

See United States Party/Case Index,

http://pacer.uspci.uscourts.gov (March 2,2012). Court records reflect that Petitioner
is an abusive and vexatious litigant. Petitioner has filed numerous cases that were
dismissed as frivolous, malicious, or for failure to state a claim for relief. See
Luevano v. Office of Inspector General, No. SA-11-CA-131-OG (W.D. Tex. Feb. 28,
2011) (including a list of nine cases that are deemed a strike for purposes of §
1915(g)).
In Luevano v. Office of Inspector General, the Honorable Orlando L. Garcia
of the San Antonio Division of this Court noted that Petitioner has continued to file
pleadings without sufficient allegations he is under imminent danger of serious
physical injury and that the three strikes provision of § 1915(g) has not curtailed
2

Case l:20-cv-01069-RP Document 4-1 Filed 10/27/20 Page 3 of 7

Petitioner from abusing the Court process. Id. at 3. Judge Garcia proceeded to
sanction Petitioner as follows:
Therefore, this Court ORDERS Jaime Luevano is sanctioned $100 and
is barred from filing documents with the United States District Court for
the Western District of Texas until this sanction is paid. The Clerk of
Court is directed not to accept any attempted submissions inconsistent
with this bar.
Additionally, this court ORDERS that in any future civil pleading Jaime
Luevano files or attempts to file in any United States District Court to
open a civil case, he must state that this Court imposed a $100
sanction, he must state that he is barred Q from filing documents with
the United States District Court for the Western District of Texas until
this sanction is paid, and he must state whether he has paid the
sanction.
Also, this Court Orders that in any future civil pleading Jaime Luevano
files or attempts to file in any United States District Court to open a civil
case, he must set out in the pleading a complete history of his previous
civil litigation in federal courts, identifying each case by name and
cause number, stating the court in which each case was filed, and
stating the result of each case.
Failure by Jaime Luevano to comply with these orders shali result in the
Imposition of additional sanctions.
Id at 4.
A review of the pleadings in this case reveals that Petitioner has failed to
comply with the orders set forth in Luevano v. Office of Inspector General. Petitioner
does not inform the Court that the San Antonio district court imposed a $100
sanction or that he has paid the sanction. Petitioner also does not include a
complete history of his previous civil litigation.

Furthermore, having carefully

considered Petitioner's writ, the Court finds that his allegations of a murder plot are
3

Case l:20-cv-01069-RP Document 4-1 Filed 10/27/20 Page 4 of 7

baseless, irrational, and wholly incredible. They do not show he Is under imminent
danger of serious physical injury as contemplated by the statute. See Banos v.
O’Guin, 144 F.3d 883,884-85 (5th Cir. 1998); Choyce v. Dominguez, 160 F.3d 1068
(5th Cir.1998). See also Gibbs v. Cross, 160 F.3d 962, 967 (3d Cir. 1998) (citing
Denton v. Hernandez, 504 U.S. 25,33 (1992)) (recognizing that a district court may
discredit "factual claims of imminent danger that are ‘dearly baseless,' i.e.,
allegations that are fantastic or delusional and rise to the level of the ‘irrational or
wholly Incredible’”). Accordingly, it is
ORDERED that Petitioner's motion to proceed IFP (Doc. 2) is hereby
DENIED. It is further
ORDERED that Petitioner’s mandamus petition is hereby DISMISSED
without prejudice for failure to comply with the filing restrictions set forth by Judge
Garcia in Luevano v. Office of Inspector General and pursuant to the three strikes
provision of § 1915(g). It is further
ORDERED that Petitioner is hereby SANCTIONED $100 for violating the
various filing restrictions set forth in Judge Garcia’s February 28, 2011, Order
(including the failure to pay the $100 sanction imposed by Judge Garcia before filing
any documents in the Western District of Texas). Petitioner is BARRED from filing
documents with the United States District Court for the Western District of Texas
until showing proof that ail sanctions have been paid. The Clerk of Court is directed
not to accept any attempted submissions inconsistent with this bar. It is further
4

Case l:20-cv-01069-RP Document 4-1 Filed 10/27/20 Page 5 of 7

ORDERED that Petitioner must continue to comply with all of Judge Garcia's
filing restrictions set forth in the February 28,2011, Order before filing or seeking to
file future civil pleadings in the United States District Court for the Western District
of Texas or any other United States District Court. It is further
ORDERED that, in any future civil pleading Petitioner attempts to file in any
United States District Court to open a case, Petitioner must state that this Court
imposed a $100 sanction and also include this case as part of the history of his
previous civil litigation in federal court. FAILURE BY PETITIONER TO COMPLY
WITH THIS ORDER AND JUDGE GARCIA’S ORDER ENTERED ON FEBRUARY
28, 2011, SHALL RESULT IN THE IMPOSITION OF ADDITIONAL SANCTIONS
AND FIUNG RESTRICTIONS. It is further
ORDERED that any and ail motions not previously ruled upon by the Court are
DENIED, it is further
ORDERED that the Clerk of the Court is directed to e-mail a copy of this Order
and the Judgment to the Pro Se Clerk for the United States District Court for the
Eastern District of Texas.
SIGNED this

day of March. 2012.

WALTER S. SMITH, JR.
UNITED STATES DISTRICT JUDGE

5

Case l:20-cv-01069-RP Document 4-1 Filed 10/27/20 Page 6 of 7
Case 6:12-CV-00049-WSS Documents

Filed 03/05/12 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
WACO DIVISION
JAIME LUEVANO,
TDCJ# 1655791
Petitioner,
v.
U.S. DISTRICT JUDGE OF
ABILENE, TX,etal„
Respondents.

§
§
§
§
§ CIVIL ACTION NO. W-12-CA-049
§
§
§
§
JUDGMENT

In accordance with the Order of this Court entered this date, the Court enters
Its Judgment as follows:
IT IS ORDERED, ADJUDGED AND DECREED that Petitioner's mandamus
petition is hereby DISMISSED without prejudice: (1) for failure to comply with the
filing restrictions set forth in the San Antonio district court’s Order of February 28,
2011, in Luevano v. Office ofInspector General, No. SA-i 1-CA-131 -OG (W. D. Tex.
Feb. 28,2011); and (2) pursuant to the three strikes provision of § 1915(g).
IT IS FURTHER ORDERED, ADJUDGED AND DECREED that Petitioner is
hereby SANCTIONED $100 for violating the various filing restrictions set forth in the
February28,2011, Order (including the failure to pay the $100 sanction imposed by
the San Antonio district court before filing any documents in the Western District of
Texas). Petitioner is BARRED from filing documents with the United States District

Case l:20-cv-01069-RP Document 4-1 Filed 10/27/20 Page 7 of 7
Case 6:12-cv-00049-WSS Document 5 Filed 03/05/12 Page 2 of 2

Court for the Western District of Texas until showing proof that all sanctions have
been paid. The Clerk of Court is directed not to accept any attempted submissions
inconsistent with this bar.
IT IS FURTHER ORDERED, ADJUDGED AND DECREED that any relief not
specifically granted in the Judgment is DENIED.
SIGNED this 5*

day of March, 2012.

La

WALTER S. SMITH, JR.
UNITED STATES DISTRICT JUDGE

2

